  Federal Labor Relations Authority
  OFFICE OF INSPECTOR GENERAL




50th Semiannual Report to Congress
              April 1, 2013 – September 30, 2013




              Federal Labor Relations Authority
     1400 K Street N.W., Suite 250, Washington, DC 20424
                                                    50th Semiannual Report to Congress | i



TABLE OF CONTENTS

Executive Summary                                                                     1

Federal Labor Relations Authority Overview                                            2

 Mission                                                                              2
 Organization                                                                         2

Office of Inspector General                                                           4

Office of Inspector General Activities                                                5

 Audits and Evaluations                                                               5
 OIG Hotline Information                                                              6
 OIG Investigations                                                                   7

 Other Activities                                                                     7

Reporting Requirements of the Inspector General Act of 1978, as Amended               9

FY 2013 Freedom of Information Act Requests                                          10

TABLE I – Summary of Audit Reports with Corrective Actions Outstanding for More Than
1 Year                                                                               11

TABLE II – Listing of Audit Reports Issued                                           12

TABLE III – Reports with Questioned Costs                                            13

TABLE IV – Recommendations that Funds Be Put to Better Use                           14

APPENDIX A - Acronyms and Abbreviations                                              15

APPENDIX B - Definitions of Terms Used                                               16



                                                        April1, 2013 – September 30, 2013
                                                             50th Semiannual Report to Congress | 1




Executive Summary
This Semiannual Report, submitted pursuant to Section 5 of the Inspector General Act of 1978, as
amended, summarizes the major activities and accomplishments of the Federal Labor Relations
Authority (FLRA) Office of Inspector General (OIG) for the period April 1, 2013 to September 30, 2013.
The most significant activities of the OIG during the second half of Fiscal Year (FY) 2013 are noted
below. Additional details pertaining to each activity can be found in subsequent sections of this
report.

During this reporting period, the OIG initiated the annual audit of the FLRA’s FY 2013 Financial
Statements (AR-14-01); and an evaluation of the FLRA’s Compliance with the Federal Information
Security Management Act for Fiscal Year 2013 (ER-14-01). The OIG contracted with Dembo, Jones,
Healy, Pennington & Marshall, P.C. (DJHPM) to conduct both reviews.

The OIG procured services to conduct an audit of FLRA’s Purchase Card Program (AR-14-02). On
September 26, 2013, the contract was awarded to DJHPM.

In FY 2013, the OIG received 107 hotline inquiries and 4 Freedom of Information Act requests. Of the
107 inquiries received, 27 of the hotline inquiries were referred or redirected to other FLRA offices, 20
were referred or redirected to another OIG. No further action was taken against the remaining 59
hotline inquiries. In addition, one investigation (IR-13-01) was opened during this seminannual
reporting period and remains open.

Finally, in August 2013, Samson T.A. and Associates, PLLC completed a Quality Assurance Review of
the FLRA OIG. The primary objective of the review was to ensure that the FLRA OIG quality control
system is suitably designed and consistently complied with to the extent necessary to reasonably
ensure compliance with professional audit standards and policies. The review resulted in a rating of
pass.




                                                                   April1, 2013 – September 30, 2013
                                                             50th Semiannual Report to Congress | 2




Federal Labor Relations Authority Overview
Mission
The mission of the Federal Labor Relations Authority (FLRA) is to carry out the five primary statutory
responsibilities as efficiently as possible and in a manner that gives full effect to the rights afforded
employees and agencies under the Federal Service Labor-Management Relations Statute (the Statute).
Under the Statute, the primary responsibilities (type of cases) of the FLRA include:

       (1)   Determining the appropriateness of units for labor organization representation (REP);
       (2)   Adjudicating exceptions to arbitrator’s awards (ARB);
       (3)   Resolving complaints of unfair labor practices (ULP);
       (4)   Resolving bargaining impasses; and
       (5)   Resolving issues relating to the duty to bargain (NEG).



Organization
The FLRA conducts it case processing activities through:

   The Office of the General Counsel (OGC) of the Authority – led by the General Counsel, who is
   appointed by the President and confirmed by the Senate – which, through regional offices, is the
   entry point for ULP charges filed with the FLRA. The OGC also processes REP petitions filed with
   the FLRA and decides appeals of Regional Directors’ decisions dismissing ULP charges.
   The Office of Administrative Law Judges is the office in which judges appointed by the Authority
   conduct administrative hearings and issue recommended decisions in cases involving alleged ULPs
   and issue decisions involving applications for attorney fees under the Back Pay Act or the Equal
   Access to Justice Act.
   The Authority is a quasi-judicial body (with three full-time Members --one of which serves as the
   FLRA Chairman-- appointed by the President and confirmed by the Senate), that resolves appeals
   in ULP and REP cases and adjudicates exceptions to ARB awards and NEG appeals.
   The Federal Service Impasses Panel, which consists of up to seven part-time members appointed
   by the President (without Senate confirmation), resolves impasses between Federal agencies and
   unions representing Federal employees under the Statute and the Federal Employees Flexible and
   Compressed Work Schedules Act.
   The FLRA also provides full staff support to two other entities: the Foreign Service Impasse
   Disputes Panel and the Foreign Service Labor Relations Board (FSLRB).
   The Chairman is the head of the Agency and also serves as FLRA’s Chief Executive and
   Administrative Officer, overseeing all agency-wide administrative functions.

                                                                   April1, 2013 – September 30, 2013
                                                                               50th Semiannual Report to Congress | 3



In carrying out statutory responsibilities, the Chairman oversees the following offices:
The Office of the Executive Director, which provides agency-wide operational support through the
following divisions: Budget and Finance, Administrative Services, Human Resources, and
Information Resources Management.
The Office of the Solicitor, which represents the agency in court proceedings before all United
States Courts and provides the Chairman legal advice on various legal issues.


                                             FLRA ORGANIZATION CHART

                                                             AUTHORITY
                                                            CHAIRMAN AND
                                                                CHIEF
                                                              EXECUTIVE
                                                               OFFICER




      FOREIGN
      SERVICE               FOREIGN               FEDERAL                OFFICE OF THE           AUTHORITY             GENERAL
       LABOR                SERVICE               SERVICE                 INSPECTOR               MEMBERS
                                                                                                                       COUNSEL
     RELATIONS              IMPASSE              IMPASSES                  GENERAL                   (2)
       BOARD            DISPUTES PANEL             PANEL




                                                                                             CHIEF COUNSELS            REGIONAL
                                                                                              (ONE TO EACH
                                                                                                                        OFFICES
                                                                                                MEMBER)
                                                                                                                          (7)
                                                                                                 & STAFF




                    EQUAL              OFFICE OF THE         OFFICE OF THE       OFFICE OF THE         CHIEF COUNSEL
                 EMPLOYMENT             EXECUTIVE           ADMINISTRATIVE        SOLICITOR                TO THE
                 OPPORTUNITY             DIRECTOR             LAW JUDGES                                 CHAIRMAN
                  PROGRAM




                               BUDGET AND                                                    OFFICE OF CASE      COLLABORATION
      ADMINISTRATIVE                              INFORMATION              HUMAN                                       AND
        SERVICES                 FINANCE                                                         INTAKE
                                                   RESOURCES             RESOURCES                                ALTERNATIVE
         DIVISION                DIVISION                                                          AND
                                                  MANAGEMENT              DIVISION                                   DISPUTE
                                                                                              PUBLICATION
                                                     DIVISION                                                      RESOLUTION
                                                                                                 OFFICE
                                                                                                                     OFFICE




                                                                                         April1, 2013 – September 30, 2013
                                                           50th Semiannual Report to Congress | 4




Office of Inspector General
The Inspector General Act of 1978, as amended (hereafter referred to as the IG Act), requires the FLRA
and other small agencies to establish an OIG. FLRA is a designated Federal entity under the IG Act of
1978, as amended. The Dodd-Frank Wall Street Reform and Consumer Protection Act (P.L. 111-203)
altered the relationship of the designated Federal entity Offices of Inspectors General with the agency
head by establishing that the term “head of the designated Federal entity” for FLRA “means the
members of the Authority.” In accordance with the Dodd-Frank Act, we submit this report to the
Chairman and Authority Members.

The FLRA OIG is responsible for:

       (1) conducting and supervising audits and investigations relating to FLRA programs and
           operations;
       (2) detecting and preventing fraud, waste, and abuse of agency programs and operations
           while providing leadership and coordination;
       (3) recommending policies designed to promote economy, efficiency, and effectiveness of the
           establishment; and
       (4) keeping the Chairman, Authority Members, and Congress fully and currently informed
           about problems and deficiencies in FLRA agency programs and operations, and the need
           for corrective action.

To aid the OIG in accomplishing its mission, the OIG was provided an administrative assistant.

                                        OIG ORGANIZATION CHART



                                              INSPECTOR
                                               GENERAL




                                                               OPERATIONAL SUPPORT
                       ADMINISTRATIVE
                                                               - COUNSEL TO THE IG
                         ASSISTANT
                                                               - CONTRACTOR




                                                                 April1, 2013 – September 30, 2013
                                                           50th Semiannual Report to Congress | 5




Office of Inspector General Activities
Audits and Evaluations
In accordance with the IG Act, the FLRA OIG conducts, supervises and coordinates audits and
evaluations relating to the programs and operations of the FLRA.

Completed Audits and Evaluations
  QUALITY ASSURANCE REVIEW OF THE FLRA OIG AUDIT OPERATIONS (ER-14-02)
       Every year, the FLRA OIG is required to undergo a review of its audit function’s system of
       quality control. The purpose of the review is to assess whether FLRA OIG carries out its work in
       accordance with:

          •   established policies and procedures, including Generally Accepted Government
              Auditing Standards (GAGAS);
          •   applicable Office of Management and Budget and Government Accountability Office
              guidance; and
          •   statutory provisions applicable to OIG audits.

       We contracted with the independent accounting firm of Samson T.A. and Associates, PLLC to
       conduct a review of FLRA OIGs quality assurance program. The scope of the review was
       April 1, 2012 through March 31, 2013. FLRA OIGs can receive a rating of pass, pass with
       deficiency(ies) or fail. FLRA OIG received a review rating of pass.


Ongoing Audits and Evaluations
  AUDIT OF THE FLRA’s FISCAL YEAR 2013 FINANCIAL STATEMENTS (AR-14-01)
       The OIG exercised another option year with Dembo, Jones, Healy, Pennington & Marshall, P.C.
       (DJHPM) an independent certified public accounting firm, to conduct the FLRA’s annual
       financial statement audit and the related statements of net cost and changes in net position,
       and the statements of budgetary resources.

  EVALUATION OF THE FEDERAL LABOR RELATIONS AUTHORITY COMPLIANCE WITH THE
  FEDERAL INFORMATION SECURITY MANAGEMENT ACT FISCAL YEAR 2013 (ER-14-01)
       The E-Government Act of 2002 (P.L. 107-347), commonly referred to as FISMA, requires
       Federal agencies to develop, document, and implement an agency-wide information security
       program that provides security for the information and information systems that support the
       operations and assets of the agency. FISMA assigns specific responsibilities to agency heads
       and IGs.


                                                                 April1, 2013 – September 30, 2013
                                                             50th Semiannual Report to Congress | 6



       FISMA requires agencies to have an annual independent evaluation performed on their
       information security programs and practices and to report the evaluation results to OMB.
       FISMA states that the independent evaluation is to be performed by the agency IG or an
       independent external auditor as determined by the IG.

       DJHPM, on behalf of the OIG, will conduct an independent evaluation of FLRA’s compliance
       with FISMA for FY 2013 using guidelines established by FISMA, OMB, and the National
       Institute of Standards and Technology.

   AUDIT OF FLRA’S FY 2013 CHARGE CARD PROGRAM (AR-14-02)
       On October 5, 2012, the President signed into law the Government Charge Card Abuse
       Prevention Act of 2012 (Charge Card Act), Public Law 112-194 , which reinforced
       Administration efforts to prevent waste, fraud, and abuse of Government-wide charge card
       programs.

       The Charge Card Act requires all executive branch agencies to establish and maintain
       safeguards and internal controls for purchase cards, travel cards, integrated cards, and
       centrally billed accounts consistent with existing OMB guidance. On September 26, 2013, the
       OIG procured contract services with DJHPM to conduct an audit of FLRA’s FY 2013 Charge
       Card Program in accordance with the Government Charge Card Act and OMB guidance.

OIG Hotline Information
The OIG hotline exists to enable FLRA employees, FLRA contractors, and the public to have direct and
confidential contact with the OIG. All allegations or referrals of fraud, waste, abuse, mismanagement,
and misconduct involving FLRA employees, contractors, programs, operations, property, or funds
received through any means are termed “hotline complaints”. Once a hotline complaint has been
received, a preliminary inquiry is conducted to determine whether the hotline complaint will be closed
with no further action taken, referred to management or another agency, or an investigation will be
initiated.

During FY 2013, the OIG received 107 hotline inquiries. These hotline inquiries were received via the
following methods: 14 telephone calls, 89 email or internet/intranet responses, and 4 anonymous
letters/contact. Of the 107 inquiries received, 27 of the hotline inquiries were referred or redirected to
other FLRA offices, 20 were referred or redirected to another OIG. No further action was taken
against the remaining 59 hotline inquiries. One investigation was opened during this semiannual
reporting period.




                                                                   April1, 2013 – September 30, 2013
                                                            50th Semiannual Report to Congress | 7



               COMPLAINT METHOD                                   HOTLINE DISPOSITION

                        3.7%   d                                         Complaint Method
                                                                               0.9%
                               13.1%
                                                                      25%



                                                                                            55.1%


                      83.2%
                                                                       18.7%
                HOTLINE TELEPHONE CALLS

                HOTLINE EMAILS OR                                   RESOLVED BY FLRA OIG
                INTERNET/INTRANET RESPONSES
                ANONYMOUS LETTERS/CONTACT                           REFERRED TO OTHER OIG
                                                                    FORWARDED TO OTHER FLRA OFFICE
                                                                    OPENED INVESTIGATION




OIG Investigations
The OIG considers many factors when evaluating whether to open an investigation based on a hotline
complaint, and acknowledges that every hotline complaint received by the OIG cannot be
investigated and in many cases do not merit investigation. The FLRA OIG investigations can give rise
to administrative, civil and criminal penalties. Based on investigations conducted, the FLRA IG issues
a report that sets forth the allegations and an objective description of the facts to FLRA management
regarding administrative and civil matters. Investigations which uncover potential criminal activity are
referred to the Department of Justice. One investigation was opened during this semiannual
reporting period and remains open.

Other Activities
Peer Review
Offices of Inspectors General performing audits are required to perform (and undergo) reviews of
other OIG offices on a 3-year cycle. Peer reviews are conducted of an OIG audit organization’s system
of quality control in accordance with the Council of Inspectors General on Integrity and Efficiency
(CIGIE) Guide for Conducting External Peer Reviews of the Audit Organizations of Federal Offices of
Inspector General, based on requirements in the Government Auditing Standards (Yellow Book).
Federal audit organizations can receive a rating of pass, pass with deficiencies, or fail.




                                                                  April1, 2013 – September 30, 2013
                                                           50th Semiannual Report to Congress | 8



Section 989C of the Dodd-Frank Wall Street and Consumer Protection Act of 2010 contains additional
semiannual reporting requirements pertaining to peer review reports. Federal Inspectors General are
required to engage in peer review processes related to audit operations. In keeping with Section
989C, our office is reporting the following information related to its peer review activities. These
activities cover our role as both the reviewed, and the reviewing OIG.

Peer Review Planned on FLRA OIG Audit Operations
The FLRA OIG is not currently scheduled for a peer review. The next peer review to be conducted on
the FLRA’s OIG system of quality control is projected for FY 2014. The most recent peer review was
completed on June 9, 2011 with a rating of a pass.

Peer Review to be Conducted by FLRA OIG on Other Audit Operations
The FLRA OIG is not currently scheduled to perform a peer review on other audit operations. The next
peer review to be conducted on other audit operations system of quality control is projected for FY
2014.

Memorandum of Understanding
In accordance with Section 6 of the Inspector General Reform Act of 2008, each Inspector General
shall have his or her own (not reporting to agency management) legal counsel, or obtain the services
of a counsel appointed by and directly reporting to another Inspector General or CIGIE on a
reimbursable basis. The OIG signed a Memorandum of Understanding (MOU) with the Department of
Treasury OIG to provide legal services on a fiscal-year basis.

The FLRA OIG signed a MOU with the Federal Maritime Commission (FMC) OIG to serve as Interim IG
which ended August 2013. During the interim period, the FLRA IG performed the duties of both the
FLRA IG as well as the FMC Interim IG.

The FLRA OIG signed a MOU with the General Services Administration OIG to obtain investigative
assistance to support an opened investigation.

Regulatory Review
Section 4(a)(2) of the Inspector General Act of 1978, as amended, requires the OIG to review existing
and proposed legislation and regulations relating to FLRA programs and operations of FLRA. During
this reporting period the OIG did not review any legislation and regulations relating to FLRA.

Liaison Activities
The IG is a member of the CIGIE, which was established on October 14, 2008, pursuant to the
Inspector General Reform Act of 2008. Additionally, the FLRA IG is a member of the Professional
Development Committee and Inspection and Evaluation Committee.

                                                                 April1, 2013 – September 30, 2013
                                                                     50th Semiannual Report to Congress | 9




Reporting Requirements of the Inspector
General Act of 1978, as Amended
The reporting requirements of the Inspector General Act of 1978, as amended, are listed in the
following table along with the location of the required information. The word “None” appears where
there is no data to report under a particular requirement.

    REFERENCE          REPORTING REQUIREMENT                                                    PAGE
    Section4(a)(2)     Review of legislation and regulations                                    p.8
                       Significant problems, abuses, and deficiencies relating to the
    Section 5(a)(1)                                                                             None
                       administration of programs and operations
                       Recommendations with respect to significant problems, abuses or
    Section 5(a)(2)                                                                             None
                       deficiencies
                       Recommendations included in previous semiannual reports on which
    Section 5(a)(3)                                                                             p.11
                       corrective action has not been completed (TABLE I)
    Section 5(a)(4)    Matters referred to prosecutive authorities                              None
    Section 5(a)(5)    Summary of reports                                                       None
    Section 5(a)(6)    Listing by subject of audit reports issued (TABLE II)                    p.12
    Section 5(a)(7)    Summary of significant reports                                           None
    Section 5(a)(8)    Statistical table – Reports with questioned costs (TABLE III)            p.13
                       Statistical table – Recommendations that funds be put to better use
    Section 5(a)(9)                                                                             p.14
                       (TABLE IV)
                       Summary of each audit report, inspection report, and evaluation report
    Section 5(a)(10)                                                                            None
                       without management decisions
    Section 5(a)(11)   Description and explanation of revised management decision               None
    Section 5(a)(12)   Management decision with which the IG is in disagreement                 None
                       Information under section 05(b) of the Federal Financial Management
    Section 5(a)(13)                                                                            None
                       Improvement Act (FFMIA) of 1996 1
    Section 5(a)(14)   Peer Review Activity                                                     p.7




1
FLRA is not subject to the requirements of the FFMIA.


                                                                          April1, 2013 – September 30, 2013
                                                         50th Semiannual Report to Congress | 10




FY 2013 Freedom of Information Act Requests

FOIA ACTIVITY                                                                           TOTAL
Number of Freedom of Information Act (FOIA) Requests Received                           4
Number of FOIA Requests Processed
Number Granted
Number Partially Granted                                                                2
Number Not Granted
Reasons for Denial
No Records Available                                                                    2
Referred to Other Agencies
Requests Denied in Full Exemption 3
Requests Denied in Full Exemption 5
Requests Denied in Full Exemption 7(A)
Requests Denied in Full Exemption 7(C)
Request Withdrawn
Not a Proper FOIA Request
Not an Agency Record
Duplicate Request
Other
Requests for OIG Reports from Congress and Other Government Agencies
Received
Processed
Number of OIG Reports/Documents Released in Response to Requests




                                                                April1, 2013 – September 30, 2013
                                                  50th Semiannual Report to Congress | 11




TABLE I – Summary of Audit Reports with
Corrective Actions Outstanding for More Than
1 Year

                                                                  RECOMMENDATION
    REPORT TITLE            REPORT NUMBER   ISSUE DATE    NUMBER      CLOSE     OPEN
Report on Evaluation of       FY09FISMA       07/09          16         12         4
FLRA’s FISMA
Compliance
Evaluation of the FLRA         ER-12-01        11/11          7         4          3
Compliance with the
FISMA
Management Letter for          AR-12-02        12/11          3         1          2
Fiscal Year 2011 Audit of
the FLRA Financial
Statements




                                                         April1, 2013 – September 30, 2013
                                                    50th Semiannual Report to Congress | 12




TABLE II – Listing of Audit Reports Issued

                                                                              FUNDS PUT
REPORT       ISSUE                              QUESTIONED   UNSUPPORTED      TO BETTER
NUMBER       DATE         REPORT TITLE             COST         COST             USE
                       Quality Assurance
ER-14-02   8/29/2013   Review of the FLRA OIG       $0             $0              $0
                       Audit Operations




                                                          April1, 2013 – September 30, 2013
                                                     50th Semiannual Report to Congress | 13




TABLE III – Reports with Questioned Costs

                                         NUMBER OF         QUESTIONED       UNSUPPORTED
                                          REPORTS             COST              COST
  A. For which no management
     decision has been made by the
                                             0                  $0                $0
     commencement of the
     reporting period.
  B. Which were issued during the
                                             0                  $0                $0
     reporting period.
                     Subtotals (A + B)       0                  $0                $0
  C. For which a management
     decision was made during the            0                  $0                $0
     reporting period.
    i.    Dollar value of disallowed
                                             0                  $0                $0
          costs; and
    ii.   Dollar value of costs not
                                             0                  $0                $0
          disallowed.
  D. For which no management
     decision has been made by the           0                  $0                $0
     end of the reporting period.
  E. Reports for which no
     management decision was
                                             0                  $0                $0
     made within 6 months of
     issuance.




                                                           April1, 2013 – September 30, 2013
                                                         50th Semiannual Report to Congress | 14




TABLE IV – Recommendations that Funds Be
Put to Better Use

                                                                NUMBER OF       UNSUPPORTED
                                                                 REPORTS            COST
 A. For which no management decision has been made by
                                                                     0                $0
    the commencement of the reporting period.
 B. Which were issued during the reporting period.                   0                $0
                                           Subtotals (A + B)         0                $0
 C. For which a management decision was made during the
                                                                     0                $0
    reporting period.
   i.    Dollar value of recommendations that were agreed
                                                                     0                $0
         to by management; and
   ii.   Dollar value of recommendations that were not
                                                                     0                $0
         agreed to by management.
 D. For which no management decision has been made by
                                                                     0                $0
    the end of the reporting period.
 E. Reports for which no management decision was made
                                                                     0                $0
    within 6 months of issuance.




                                                               April1, 2013 – September 30, 2013
                                                 50th Semiannual Report to Congress | 15




APPENDIX A - Acronyms and Abbreviations

ACCRONYM
ABBREVIATION   DEFINITION
ARB            Arbitration (type of FLRA case)
CIGIE          Council of Inspectors General on Integrity and Efficiency
DJHPM          Dembo, Jones, Healy, Pennington & Marshall, P.C.
FFMIA          Federal Financial Management Improvement Act
FISMA          Federal Information Security Management Act of 2002
FLRA           Federal Labor Relations Authority
FOIA           Freedom of Information Act
FSLRB          Foreign Service Labor Relations Board
FY             Fiscal Year
GSA            General Services Administration
IG             Inspector General
NEG            Negotiability (Type of FLRA case)
OGC            Office of the General Counsel
OIG            Office of Inspector General
OMB            Office of Management and Budget
P.L.           Public Law
REP            Representation (Type of FLRA Case)
STATUTE        Federal Service Labor-Management Relations Statute
ULP            Unfair Labor Practice (Type of FLRA case)




                                                       April1, 2013 – September 30, 2013
                                                         50th Semiannual Report to Congress | 16




APPENDIX B - Definitions of Terms Used

TERM                     DEFINITION
Disallowed Cost          A questioned cost that management, in a management decision, has sustained
                         or agreed should not be charged to the Government.
Final Action             The completion of all actions that management has concluded, in its
                         management decision, are necessary with respect to the findings and
                         recommendations. If management concluded that no actions were necessary,
                         final action occurs when management decision is issued.
Management Decision      An evaluation by management of the findings and recommendations included
                         in an audit report and the issuance of a final decision by management
                         concerning its response to such findings and recommendations, including
                         actions concluded to be necessary.
Questioned Cost          A cost questioned because of: (a) an alleged violation of a law, regulation,
                         contract, or other agreement or document governing the expenditures of funds;
                         (b) a finding that, at the time of the audit, such cost is not supported by
                         adequate documentation; or (c) a finding that the expenditure of funds for the
                         intended purpose is unnecessary or unreasonable.
Recommendation That      A recommendation that funds could be used more efficiently if management
Funds Be Put To Better   took actions to complete the recommendation, including: (a) reduction in
Use                      outlays; (b) deobligation of funds; (c) costs not incurred by implementing
                         recommended improvements related to the operations of the establishment, a
                         contractor; (d) avoidance of unnecessary expenditures noted in preaward
                         reviews of contract; or (e) any other savings which are specifically identified.
Unsupported Cost         A cost questioned because, at the time of the audit, such cost is not supported
                         by adequate documentation.




                                                                 April1, 2013 – September 30, 2013
                 Federal Labor Relations Authority
                 OFFICE OF INSPECTOR GENERAL

Contacting the Office of the Inspector General

If you believe an activity is wasteful, fraudulent, or abusive of Federal funds,
contact us via:


  Hotline @ (800)331-3572


        Online Hotline @ FLRA.gov/oig-hotline


              Email @ oigmail@flra.gov


                    Fax @ (202)343-1072

                          or Write @ 1400 K Street N.W., Suite 250,
                          Washington, DC 20424


The complainant may remain confidential; allow their name to be used; or anonymous. If the
complainant chooses to remain anonymous, FLRA OIG cannot obtain additional information on the
allegation, and also cannot inform the complainant as to what action FLRA OIG has taken on the
complaint. Confidential status allows further communication between FLRA OIG and the complainant
after the original complaint is received. The identity of complainants is protected under the provisions
of the Whistleblower Protection Act of 1989 and the Inspector General Act of 1978. To learn more
about the FLRA OIG, visit our Website at http://flra.gov/oig
